Memorandum from the Inspector General, ET 4C-K



March 11, 2013

Those listed on page 3

AUDIT 2012-14886 – TVA FISCAL YEAR 2012 COMPLIANCE WITH THE IMPROPER
PAYMENTS INFORMATION ACT OF 2002 AS AMENDED BY THE IMPROPER
PAYMENTS ELIMINATION AND RECOVERY ACT OF 2010



The Office of the Inspector General (OIG) performed an audit of the Tennessee Valley
Authority’s (TVA) compliance with the Improper Payment Information Act (IPIA) for fiscal
year (FY) 2012. The Act requires each agency’s Inspector General (IG) to submit the
results of their assessment of the agency’s compliance with IPIA to the agency head and
to the (1) Senate Homeland Security and Government Affairs Committee, (2) House
Committee on Oversight and Governmental Reform, (3) Comptroller General, and
(4) Controller of the Office of Management and Budget (OMB). As you know, the “agency
head” for TVA is the TVA Board and, thus, the reason each of the Board members is
receiving this report. The results of our audit were favorable for TVA in that we found TVA
was in compliance with IPIA requirements that were applicable to TVA. There is no action
required of you as a result of this report.

BACKGROUND

As required by IPIA (as amended by the Improper Payments Elimination and Recovery Act
[IPERA] of 2010), we performed a review of the Tennessee Valley Authority’s Improper
Payments Information Act Reporting For Fiscal Year 2012 letter. The OMB guidance
requires each agency IG to review agency improper payment reporting in the agency’s
annual Performance and Accountability Report (PAR) or Annual Financial Report (AFR) and
accompanying materials to determine if the agency is in compliance with IPIA. In particular,
to determine compliance with IPIA, the agency IG should review the agency’s PAR or AFR
(and any accompanying information) for the most recent FY. Compliance with IPIA means
the agency has:

   Published a PAR or AFR for the most recent FY and posted that report and any
    accompanying materials required by the OMB on the agency Web site.
   Conducted a program specific risk assessment for each program or activity that
    conforms to Section 3321 of Title 31 U.S.C. (if required).
   Published improper payment estimates for all programs and activities identified as
    susceptible to significant improper payments under its risk assessment (if required).
   Published programmatic corrective action plans in the PAR or AFR (if required).
Those listed
Page 2
March 11, 2013



     Published, and has met, annual reduction targets for each program assessed to be at
      risk and measured for improper payments.
     Reported a gross improper payment rate of less than 10 percent for each program and
      activity in which an improper payment estimate was obtained and published in the PAR
      or AFR.
     Reported information on its efforts to recapture improper payments.

For information pertaining to our objective, scope, and methodology, see the Attachment.

FINDINGS AND RECOMMENDATION

Two significant conditions impacted our determination of TVA’s compliance with IPIA
requirements.

     First, as a government corporation, TVA issues an Annual Management Report rather
      than a PAR or AFR.
     Second, TVA’s improper payments fell below IPIA threshold amounts. IPIA defines
      significant improper payments as $10 million of all program activity payments and
      2.5 percent of program outlays. TVA’s reported improper payments totaled
      $14,313,699 and 0.16 percent of program outlays.

As a result of not issuing a PAR or AFR and being under the IPIA improper payments
thresholds, TVA was largely exempt from the requirements of IPIA. In our opinion, TVA
was only required to comply with Item No. 2 (conduct a program specific risk assessment),
noted on the previous page. We reviewed the process used by TVA to identify programs
susceptible to improper payments and noted it is in compliance with IPIA guidance. TVA
performed a risk assessment for FY 2012, and its primary programs susceptible to
improper payments are its supply chain programs. TVA calculated the total amount of
payments subject to review equaled $9,108,084,720.1

Finally, even though TVA was not required to report information related to recapture efforts,
TVA did voluntarily state in their FY 2012 IPIA letter that they had recovered all but $20,040
of the total $14,313,699 improper payments identified. However, after reviewing supporting
documentation, we determined TVA overstated the amount recovered by $1,109,769. The
overstatement resulted because TVA did not include unrecovered amounts from recovery
audits performed by a contractor.

                                 -        -        -        -        -        -




1
    Consistent with their FY 2011 IPIA report, TVA’s FY 2012 letter to OMB did not include $16,817,843 in
    questioned costs identified by the TVA’s OIG in their improper payment calculation. However, in contrast to
    TVA’s 2011 report, TVA did not disclose the OIG’s questioned costs in their 2012 letter. Had TVA chosen to
    include the OIG’s questioned costs in their improper payment calculation, the percent of program outlays
    would have only increased to 0.34 percent which is still below the threshold amounts.
Those listed
Page 3
March 11, 2013



Recipients of this report are responsible for safeguarding it to prevent publication or other
improper disclosure. We have issued a separate report to TVA concerning suggestions
for improving TVA’s process for complying with IPIA. If you have any questions, please
contact David S. Shields, Senior Auditor, at (865) 633-7364 or Rick C. Underwood,
Director, Corporate Governance and Finance Audits, at (423) 785-4824.




Richard W. Moore



William Sansom, TVA Board
Lynn Evans, TVA Board
Barbara Haskew, TVA Board
Richard Howorth, TVA Board
Peter Mahurin, TVA Board
Neil McBride, TVA Board
Michael McWherter, TVA Board
Joe Ritch, TVA Board

The Honorable Thomas R. Carper, Chairman
Committee on Homeland Security and Governmental Affairs
340 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Tom Coburn, Ranking Member
Committee on Homeland Security and Governmental Affairs
442 Hart Senate Office Building
Washington, DC 20510

The Honorable Darrell E. Issa, Chairman
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, DC 20515

The Honorable Elijah Cummings, Ranking Member
Committee on Oversight and Government Reform
2471 Rayburn House Office Building
Washington, DC 20515

The Honorable Gene Dodaro
Comptroller General of the United States
Government Accountability Office
441 G Street, NW
Washington, DC 20548
Those listed
Page 4
March 11, 2013



Mr. Jeffrey Zients
Deputy Director for Management
Office of Management and Budget
1650 Pennsylvania Avenue
Room 216
Washington, DC 20503

Mr. Daniel I. Werfel
Controller, Office of Federal Financial Management
Office of Management and Budget
725 17th Street, NW
Washington, DC 20503

Attachment
cc (Attachment):
     Mr. Flavio Menasce
     Office of Federal Financial Management
     Office of Management and Budget
     725 17th Street, NW
     Washington, DC 20503

    B. Lee Allen, WT 4A-K
    Peyton T. Hairston, Jr., WT 7B-K
    Joseph J. Hoagland, WT 7C-K
    William D. Johnson, WT 7B-K
    Emily J. Reynolds, OCP 1L-NST
    John M. Thomas III, MR 6D-C
    Diane T. Wear, WT 4B-K
    Robert B. Wells, WT 9B-K
    Andrea L. Williams, WT 9B-K
    OIG File No. 2012-14886
                                                                                           ATTACHMENT
                                                                                              Page 1 of 1




OBJECTIVE, SCOPE, AND METHODOLOGY

As required by Office of Management and Budget (OMB) Circular A-123, we assessed the
Tennessee Valley Authority’s (TVA) Improper Payment Information Act Reporting for Fiscal
Year 2012 letter to determine whether TVA was in compliance with the Improper Payments
Information Act of 2002. Our audit scope was Tennessee Valley Authority’s Improper
Payment Information Act Reporting for Fiscal Year 2012 letter and supporting
documentation.

In general, to achieve our objective, we:

     Interviewed Financial Services personnel to gain an understanding of the process and
      methodology used to calculate and report improper payments for fiscal year 2012.
     Obtained and reviewed Tennessee Valley Authority’s Improper Payment Information
      Act Reporting for Fiscal Year 2012 letter.
     Obtained and reviewed legislative guidance related to improper payments, such as
      (1) the Improper Payments Information Act (IPIA) of 2002, (2) the Improper Payments
      Elimination and Recovery Act (IPERA) of 2010, and (3) Appendix C OMB Circular A-123.
     Reviewed prior year legal opinions pertaining to TVA’s legal obligations from both
      TVA’s Office of the General Counsel and the Office of Inspector General’s Legal
      Counsel concerning TVA’s compliance requirements with regard to IPIA/IPERA and
      Appendix C of the OMB Circular A-123. We also reviewed prior year guidance obtained
      from an OMB representative concerning TVA’s compliance requirements with regard to
      IPIA/IPERA and Appendix C of the OMB Circular A-123.
     Compared TVA’s IPIA reporting to legislative guidance to determine compliance.
     Reviewed a judgmental sample of improper payments consisting of approximately
      78 percent of the total dollar amount of reported improper payments.
     From the sample items noted above, we reviewed supporting documentation for
      evidence of payment recapture for overpayments and duplicate payments.
     Selected a random sample of 10 items from TVA’s sample of 106 payments that TVA
      sampled as part of the IPIA requirements. We reviewed the support for the 10 items to
      determine if TVA’s assumptions regarding whether or not the payment was paid
      correctly were reasonable.1

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




1
    We judgmentally selected each of the samples to attain additional comfort that the improper payment
    amounts reported by TVA were reasonable. Our samples were not intended to allow for any type of
    projections to be made.
